<html>
<title> - OVERSIGHT OF THE UNITED STATES CAPITOL POLICE FOLLOWING THE JANUARY 6TH ATTACK ON THE CAPITOL</title>
<body><pre>[Senate Hearing 117-26]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 117-26
                                                        

                     OVERSIGHT OF THE UNITED STATES
                      CAPITOL POLICE FOLLOWING THE
                   JANUARY 6TH ATTACK ON THE CAPITOL

=======================================================================

                                 HEARING

                               BEFORE THE

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2021

                               __________

    Printed for the use of the Committee on Rules and Administration
    
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                  Available on http://www.govinfo.gov                  
                  
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-913                      WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                  
                  
                  
                 COMMITTEE ON RULES AND ADMINISTRATION

                             FIRST SESSION

                  AMY KLOBUCHAR, Minnesota, Chairwoman

DIANNE FEINSTEIN, California         ROY BLUNT, Missouri
CHARLES E. SCHUMER, New York         MITCH McCONNELL, Kentucky
MARK R. WARNER, Virginia             RICHARD SHELBY, Alabama
PATRICK J. LEAHY, Vermont            TED CRUZ, Texas
ANGUS S. KING, JR., Maine            SHELLEY MOORE CAPITO, West 
JEFF MERKLEY, Oregon                     Virginia
ALEX PADILLA, California             ROGER WICKER, Mississippi
JON OSSOFF, Georgia                  DEB FISCHER, Nebraska
                                     CINDY HYDE-SMITH, Mississippi
                                     BILL HAGERTY, Tennessee

                    Elizabeth Peluso, Staff Director
             Rachelle Schroeder, Republican Staff Director
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statement of:

Hon. Amy Klobuchar, Chairwoman, a United States Senator from the 
  State of Minnesota.............................................     1
Hon. Roy Blunt, a United States Senator from the State of 
  Missouri.......................................................     3
Michael A. Bolton, Inspector General, United States Capitol 
  Police, Washington, DC.........................................     5

                         Prepared Statement of:

Michael A. Bolton, Inspector General, United States Capitol 
  Police, Washington, DC.........................................    28

                  Questions Submitted for the Record:

Hon. Amy Klobuchar, a United States Senator from the State of 
  Minnesota to Michael A. Bolton, Inspector General, United 
  States Capitol Police, Washington, DC..........................    45
Hon. Roy Blunt, a United States Senator from the State of 
  Missouri to Michael A. Bolton, Inspector General, United States 
  Capitol Police, Washington, DC.................................    45
Hon. Roger Wicker, a United States Senator from the State of 
  Mississippi to Michael A. Bolton, Inspector General, United 
  States Capitol Police, Washington, DC..........................    48

 
OVERSIGHT OF THE UNITED STATES CAPITOL POLICE FOLLOWING THE JANUARY 6TH 
                         ATTACK ON THE CAPITOL

                              ----------                              


                        WEDNESDAY, JUNE 16, 2021

                               United States Senate
                      Committee on Rules and Administration
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:19 p.m., in 
Room 301, Russell Senate Office Building, Hon. Amy Klobuchar, 
Chairwoman of the committee, presiding.
    Present: Senators Klobuchar, Blunt, Warner, Merkley, 
Padilla, Ossoff, Cruz, Capito, Wicker, Fischer, Hyde-Smith, and 
Hagerty.

  OPENING STATEMENT OF HONORABLE AMY KLOBUCHAR, CHAIRWOMAN, A 
       UNITED STATES SENATOR FROM THE STATE OF MINNESOTA

    Chairwoman Klobuchar. Good afternoon. I call to order this 
hearing of the Rules and Administration Committee on 
``Oversight of the United States Capitol Police Following the 
January 6th Attack on the Capitol.'' I would like to thank 
Ranking Member Blunt, and our colleagues, and, of course, our 
witness, the Inspector General for the Capitol Police, Mr. 
Michael Bolton. Thank you for being here, and we appreciate the 
recommendations and the work that you have done in this area as 
well.
    We are here today just over a week after releasing our 
bipartisan joint report with the Homeland Security Committee 
that focuses on the security, planning, and response failures 
related to the violent and unprecedented insurrection at the 
Capitol on January 6th. We all remember the haunting words of 
an officer on the radio that day asking, ``Does anyone have a 
plan? Does anyone have a plan?'' The answer, sadly, that day 
was ``no.'' Our report lays out not only key findings, but 
important recommendations with needed changes to prevent 
anything similar from happening again, and to ensure that in 
the future, there is a plan.
    I continue to support a January 6th independent 9/11-style 
commission to look at the larger causes of the insurrection as 
well as the rise of domestic extremism. These issues greatly 
contributed and caused what happened at the Capitol that day, 
but the focus of this committee, combined with the Homeland 
Security Committee, which actually allowed us to extend our 
jurisdiction and look at more things even outside of the 
Capitol Police because we did it with Homeland Security, which 
included looking at the role of the Defense Department 
decisions, as well as the FBI, and Homeland Security, and the 
like, our focus was on what happened that day and what we can 
do to make sure it does not happen again.
    We believe that we should not wait to implement changes 
that can be made immediately, and today's hearing on oversight 
of Capitol Police practices and procedures is an important step 
as we look at reforms that should be put in place without 
delay. Toward that end, we are glad that Mr. Bolton is here to 
discuss his work and perspective on the major issues facing the 
Department. Since January 6th, Mr. Bolton has issued four flash 
reports looking into the breakdowns and failures in the lead-up 
to and on that day. These inspector general reports, which 
cover topics including intelligence, operational planning, the 
Civil Disturbance Unit, and threat assessment, have expanded 
our understanding of what happened that day. These reports also 
identified changes that are needed with the practices and 
procedures of Capitol Police leadership, especially as the 
confidence of rank-and-file officers has been seriously 
undermined. Many of Mr. Bolton's recommendations identify 
reforms, and we also put those reforms together as part of our 
joint report. Based on what we have found, I want to focus 
today on the major changes facing the Department as well as the 
changes that are needed both to restore trust and ensure the 
security of the Capitol Complex.
    First are the intelligence failures which greatly 
contributed to the breakdowns we saw on January 6th and left 
frontline officers unprepared for what they faced that day. We 
know that the three intelligence-related units within the 
Capitol Police knew about social media posts calling for 
violence at the Capitol, but that the full scope of these 
warnings never made it to the Capitol Police leadership, rank-
and-file officers, or law enforcement partners. There were also 
conflicting reports on the threats. One Capitol Police 
intelligence assessment on January 3rd warned that the Capitol 
could be a target, but a January 6th daily intelligence report 
called the likelihood of violence ``remote'' to ``improbable.'' 
Second, we know that there was a major issue with the lack of 
equipment. Seventy-five percent--75 percent--of the officers on 
duty that day were forced to defend the Capitol in their 
regular uniforms. Some of the equipment issued that day was old 
or had degraded due to improper storage, as was the case with 
some of the protective shields distributed that had been stored 
at the wrong temperature, making them shatter on impact. Just 
imagine being a police officer. You are given a shield and it 
shatters on impact. In another instance, officers could not 
access the gear that they needed because it was locked on a 
bus.
    Third, we know that there was an issue with training, that 
less than 10 percent of the officers responding that day had 
advanced civil disturbance training, and many officers had not 
received any civil disturbance training since their initial 
recruit officer class training. Fourth, we know that there was 
no comprehensive department-wide operational plan from 
leadership in advance of January 6th, which resulted in 
confusion and a lack of communication that placed frontline 
officers in peril. We know that incident commanders, who could 
have provided better communication to officers, ended up being 
unavailable as they fought with rioters themselves because 
there had not been better preparation.
    We know that there was no plan to deploy the National Guard 
if things escalated to a point where they were needed, and 
there was a delay in getting the required approval from members 
of the Capitol Police Board to request immediate National Guard 
support, an issue that I am introducing legislation to address 
with Ranking Member Blunt, and we will do it--be doing that 
very soon. These failures resulted in an unnecessary delay in 
the arrival of National Guard troops to assist in defending the 
Capitol from an armed insurrection. The Guard should have been, 
of course, called in before this started as the intelligence 
was gathered, and there should have been a plan to use the 
Guard. But even that day, they could have been called in 
sooner.
    There is a lot to get through today, and, Mr. Bolton, I 
look forward to hearing your testimony. With that, I want to 
recognize Ranking Member Blunt for his opening statement.

   OPENING STATEMENT OF HONORABLE ROY BLUNT, A UNITED STATES 
               SENATOR FROM THE STATE OF MISSOURI

    Senator Blunt. Thank you, Chairwoman, and thanks for 
holding this hearing. It is the third hearing of our Committee 
of Rules and Administration. Two of them we did, as the 
Chairwoman mentioned, with the Homeland Security Committee, and 
that did allow us to talk to more people, but, of course, 
today, we are here with one of our principal responsibilities, 
and that is the responsibility of working with and helping, and 
assisting those people who protect us every day: The Capitol 
Police.
    Last week, our colleagues at Homeland Security and 
Governmental Affairs, along with this committee, issued a 
comprehensive, bipartisan report of security failures on 
January 6th and made a series of detailed recommendations, I 
think thoughtful recommendations, directed at the Capitol 
Police, the Capitol Police Board, both the House and Senate 
Sergeants at Arms, the Federal intelligence agencies, the 
Department of Defense, and local law enforcement. Today, we 
want to focus our efforts where your efforts have been: On the 
Capitol Police.
    Our bipartisan report made it clear that the Capitol Police 
officers were the true heroes that day, defending the Capitol 
with courage and honor. Their inspiring efforts, along with the 
immediate assistance of the Metropolitan DC Police, and the 
assistance that followed later from other forces in the area as 
they could get here, made an incredible difference. But their 
inspiring efforts, while they thwarted the rioters' goal and 
ensured that Congress would--could fulfill its constitutional 
obligation, were in so many ways done at great risk to 
themselves beyond what we think would be necessary with a force 
that is better equipped, that is better trained, that is better 
prepared to defend the Capitol. We owe that to the officers 
that defended us that day. The breach of the Capitol must never 
be repeated, and, in all cases, we want our officers to be 
better prepared and better equipped.
    To date, the inspector general has issued, as Senator 
Klobuchar pointed out, four flash reports, and while the 
reports were done quickly, they were done, in my view, with 
great thoroughness and 65 significant separate recommendations. 
Both our committee and the Homeland Security Committee, in the 
report we issued last week, commented favorably on those 
recommendations in our joint report. I understand that you will 
have more reports in the future. We look forward to reviewing 
those new recommendations with you as well.
    Today, we will hear more about the inspector general's 
current recommendations to improve the operational readiness of 
the Capitol Police. The recommendations and the bipartisan 
joint committee report, including the inspector general's 
recommendations, can be and should be implemented quickly. Many 
of these recommendations do not require congressional approval 
or Capitol Police Board approval, nor do they require, in many 
cases, additional appropriations. They just require quick 
action now that we know the problems that were inherent in the 
system as it related to preparation, and equipment, and 
training. This also marks the first time that the Capitol 
Police inspector general has testified before the Rules 
Committee in a public hearing, and we look forward to hearing 
further from the inspector general and the Capitol Police in 
future oversight hearings.
    As I have mentioned before, Chairwoman Klobuchar and I have 
a long history of working together to ensure not only the 
smooth daily operations of the Capitol but on a number of other 
legislative areas outside this committee where we have been 
able to work together. We can--we will continue to do that on 
this important topic. As she just mentioned, we will be 
introducing legislation in the very near future to provide the 
chief of the Capitol Police with additional authority to seek 
external assistance in the event of an emergency. I look 
forward to hearing from Mr. Bolton today and working with his 
office as the investigation into the events surrounding January 
6th continues.
    Thank you, Chairwoman Klobuchar, for holding this hearing 
and what you have done so far to move this information quickly 
to make it available to people, and to try to find quick 
answers to the problems that we know we need to solve.
    Chairwoman Klobuchar. Thank you. Thank you very much, 
Senator Blunt. I would now like to introduce our witness for 
today's hearing, Michael A. Bolton, the Inspector General for 
the United States Capitol Police.
    Mr. Bolton has served in the Capitol Police Office of 
Inspector General, also known as ``OIG,'' for nearly 15 years, 
and he was appointed as inspector general on January 20, 2019. 
Mr. Bolton previously served as the acting inspector general 
beginning in March 2018, and before that, he served as the 
Department's first assistant inspector general for 
investigations beginning in August 2006. In that capacity, he 
played an active role in developing policies and procedures for 
the Office of Professional Responsibility and the Capitol 
Police Board. Prior to joining the OIG, Mr. Bolton served for 
four years as special-agent-in-charge of the Office of 
Investigations for the United States Department of Treasury. 
There, he worked on cases of procurement fraud and on complex 
criminal, administrative, and civil investigations. Before his 
time at Treasury, Mr. Bolton served for 21 years with the 
United States Secret Service where he held numerous roles, 
including as a member of the Presidential Protection Division. 
Mr. Bolton holds a degree in criminal justice from the 
University of Maryland.
    Thank you for being here today, Mr. Bolton, and if you 
would please stand and raise your right hand so I could 
administer the oath.
    [Witness sworn.]
    Chairwoman Klobuchar. Thank you. You may be seated. You are 
now recognized for your testimony for five minutes.

  OPENING STATEMENT OF MICHAEL A. BOLTON, INSPECTOR GENERAL, 
          UNITED STATES CAPITOL POLICE, WASHINGTON, DC

    Mr. Bolton. Thank you. Good afternoon, Chair Klobuchar, 
Ranking Member Blunt, and distinguished members of the 
committee. Thank you for this opportunity to appear before you, 
the Committee of Senate Rules and Administration, to discuss 
our review of events in regards to the Department's operation, 
programs, and policies that were in effect during January 6, 
2021. I would like to extend my appreciation to the committee 
for holding this hearing. As I have stated previously in my 
other hearings, but I do believe that this bears repeating, I 
am addressing not only the committee members exercising their 
constitutional role of oversight but I am testifying to 
witnesses as well as survivors, who are affected by the events 
of January 6th.
    On January 6th, a physical security breach in the United 
States Capitol building occurred during a joint session of 
Congress to certify the electoral college vote. My goal is to 
provide each of you a better understanding on how the events of 
January 6th occurred in relation to the preparation and 
response of the Department. Other factors were involved and 
other entities are reviewing those aspects outside of the 
Capitol Police Department. I will discuss the non-law-
enforcement-sensitive findings detailed in my four flash 
reports. Any law-enforcement-sensitive questions can be 
answered in a closed-door setting.
    Shortly after the January 6th events, I notified the 
Department Board and the committees that my office would be 
suspending all future projects listed in our annual plan for 
2021 to allow my entire staff to conduct a full review of these 
events. In order to accomplish this goal, both Audits and 
Investigations would combine their collective talents to 
achieve a complete review of the Department. In addition to my 
staff, I brought on two additional contractors with expertise 
and knowledge to assist my office, a retired deputy assistant 
director of the United States Secret Service and a retired 
senior special agent chief of the Federal Bureau of 
Investigation.
    Our reports are not designed nor intended to cast blame on 
anyone individual or group. These reports are intended to be an 
independent, objective review of the Department's programs and 
operations to better protect the Capitol Complex, members, 
staff, visitors, and the rank-and-file officers who have shown 
their commitment and bravery each day by keeping us all safe. A 
collective effort must be undertaken to ensure that each and 
every officer when their shift is over, gets to go home to 
their families, as well as the safety of those who work and 
visit the first branch of government.
    Our objective for this review is to: Determine if the 
Department established adequate measures for ensuring the 
safety and security of Members of Congress, their staff, and 
the Capitol Complex; established adequate internal controls and 
processes that complied with Department policies and 
procedures; and complied with the applicable laws and 
regulations. The scope included reviewing the controls, 
processes, and operations surrounding the security measures 
prior to the planned demonstrations and the response during the 
takeover of the Capitol Building. Our recommendations are made 
by conducting interviews, document reviews, the combined 
knowledge and expertise of my staff, and following best 
practices throughout the Federal Government of those relevant 
agencies with similar functions of the Department. We are 
currently providing the Department, Board, and the committees a 
series of flash reports every 30 days, reviewing each element 
within the Department and noting any areas for improvement. We 
are providing any corresponding recommendations to compel the 
Department to move toward a protective agency as opposed to a 
police agency.
    At the time of this hearing, my office has completed four 
flash reports. The first report was a review of the operational 
planning for January 6th, including a review of intelligence-
gathering processes required for an operational plan that 
related to January 6th. Our second flash report focused on the 
Civil Disturbance Unit and the Intelligence Division as a 
whole. Our third flash report focused on threat assessment and 
countersurveillance, and, finally, our fourth flash report 
focused on the Containment Emergency Response Team and First 
Responders Unit. We anticipate our comprehensive review will 
extend for the remainder of fiscal year 2021. Currently, my 
office is reviewing the Command and Coordination Bureau, and we 
anticipate issuing that report by the end of July.
    As of today, we have made 65 recommendations detailing 
areas for improvement. Along with your report with additional 
recommendations and findings that I completely concur with, we 
have provided the Department with a roadmap to achieve the 
ultimate goal of providing security to the Capitol Complex for 
a safe and open environment for members, staff, and visitors, 
and the rank-and-file officers. As our work continues, my 
office sees continuing areas in our findings that need to be 
addressed. Those areas are intelligence, training to include 
leadership training, operational planning, and a cultural 
change. In regards to a cultural change, we see that the 
Department needs to move away from the thought process as a 
traditional police department and move to the posture as a 
protective agency. Whereas, a protective agency is posture to 
being proactive in preventing events such as January 6th.
    In conclusion, the Department is comprised of extraordinary 
men and women who are dedicated to protecting our democracy, 
putting their own lives in harm's way in order for Congress to 
exercise their constitutional duties in a safe and open manner. 
Thank you for the opportunity to appear before you today. I 
will be very happy to answer any questions the committee may 
have at this time.
    [The prepared statement of Mr. Bolton was submitted for the 
record.]
    Chairwoman Klobuchar. Thank you very much, Inspector 
General. When supporters of President Trump stormed the Capitol 
after his speech and after months of his false claims about the 
outcome of the election, we saw the results of that. We issued 
a joint report that focused on the issue of what went wrong at 
the Capitol leading into and during that day. Do you want to 
comment on our report and what you thought of the report?
    Mr. Bolton. I believe that your report, which, of course, I 
have read, it was spot on. It was--hit the mark of exactly what 
failed that day, the deficiencies within the Department and 
highlighted it. It was very useful for my office as well to 
review that report, and we appreciated that report as well, but 
it certainly was a report that hit the mark. I completely 
concur with all of your recommendations and findings.
    Chairwoman Klobuchar. Well, thank you. One reform that both 
your report and our joint report called for is consolidating 
Capitol Police intelligence operations into a single bureau as 
opposed to the three offices that currently exist. Can you 
briefly explain the problem with the current way that 
intelligence is handled? I noticed one of the things was--that 
you found is that public tips and other information received by 
Capitol Police intelligence were not properly reviewed and 
acted on.
    Mr. Bolton. Thank you. You are exactly right, ma'am. The 
problem when you have the different elements not coming on, it 
is almost what they refer to as stovepiping. You have different 
silos. That information is not being funneled up to the 
individuals, either to the command staff or all the way down to 
the officers where that information can be acted upon or 
analyzed in formulating either an operational plan or a 
different posture that you may have or call on additional 
resources. You need to have, as your report noted, that if you 
have a one--a bureau the way it is right now, it is not a 
standalone bureau. When you have these other elements in there, 
you are going to have a concerted effort in acquiring and 
disseminating, and analyzing intelligence information in a 
bureau-level setting.
    Chairwoman Klobuchar. There was not--that aside as a major 
problem, there also was not any kind of a department-wide plan 
for even where people would be located that day, even though 
they had officers there? Is that correct?
    Mr. Bolton. That is correct, yes. The officers or different 
units, even though they were mentioned in the Civil Disturbance 
Unit operational plan, as it were, those units were not even 
consulted or did not even have knowledge that they were 
included in this plan.
    Chairwoman Klobuchar. We recommend establishing the Civil 
Disturbance Unit as a formal, permanent component of the 
Capitol Police, making sure that those officers are trained and 
that they have the right equipment. Do you believe that those 
officers involved in protecting the Capitol when there is a 
potential civil disturbance should be trained on a regular 
basis?
    Mr. Bolton. Yes, ma'am, absolutely. If you have a 
standalone unit as opposed to as now as an ad hoc, you are not 
getting the training, the equipment. You are not developing 
that camaraderie that you would if they were a standalone unit 
where they start working together, and you would start knowing 
the individuals that you are working with, and you would be 
able to--it is like a team, a sports team. The more that you 
are there together and the more they practice, the better they 
are going to perform on game day.
    Chairwoman Klobuchar. There have been many--one of our 
findings, as you know, was that 75 percent of the officers were 
forced to defend the Capitol in their regular uniforms. Some 
were locked outside of a bus. The bus contained their gear, and 
they could not access it. There has also been public reporting 
of officers' gear being stolen by supporters of President 
Trump, by rioters. Is that something that you found as well? 
How would the equipment, inventory, and storage procedure in 
your most recent report help to prevent this decaying of the 
equipment as well as the potential stealing of the equipment?
    Mr. Bolton. In regards to maintaining the equipment, one of 
our recommendations was tasking Property to start doing an 
inventory--a continuous inventory to update and to properly 
storage the--that equipment. You are correct that our First 
Responders Unit, we had 12 helmets and 12 ballistic vests 
stolen when they were--basically had to retreat. They were pre-
positioned. We need to make sure when we are doing the planning 
stages, if we are going to pre-position, that that equipment is 
secured so that it will not fall into the hands of the very 
people who we are trying to stop from taking over or causing 
trouble.
    Chairwoman Klobuchar. During our first joint hearing on 
January 6th, we heard how, while the House and Senate Sergeants 
at Arms--the former House and Senate Sergeants at Arms were 
concerned with the safety of their members, the former chief of 
police was desperately trying to call them to get approval to 
deploy the National Guard. Of course, it should have been done 
ahead of time. A plan should have been in place. But even at 
that moment, he was forced to call them to try to find them 
while they were trying to guard the chamber. Do you agree that 
the structure of the Capitol Police Board impacted the ability 
of the chief to request assistance on January 6th, that day?
    Mr. Bolton. That is a difficult one for me to speak to 
considering, one, I answer to the Board.
    Chairwoman Klobuchar. Oh, I see.
    Mr. Bolton. They are my bosses.
    Chairwoman Klobuchar. Oh, Okay.
    Mr. Bolton. There are those who are looking into it. 
Yesterday's hearing that I attended with the GAO has produced a 
report in 2017 outlining changes for within the Board.
    Chairwoman Klobuchar. Right. Do you think that we should 
consider reforms to the Board?
    Mr. Bolton. Everything should be considered.
    Chairwoman Klobuchar. Alright. The Capitol Police Board is 
now conducting a search for the next Capitol Police chief, who 
will face the major task of responding to breakdowns that 
occurred on January 6th and rebuilding trust in departmental 
leadership among officers. Based on your work so far, what do 
you think should be the top priorities for finding the next 
Capitol police chief?
    Mr. Bolton. I am not involved in the selection of the chief 
obviously, so I will speak on a high level. It should be an 
individual that not only is schooled in--within, you know, law 
enforcement, but a high-level executive with the education and 
the skill set, also has a protective--person with the knowledge 
of protective agencies, ``force protection,'' if you want to 
call it. Someone with that kind of level that is also very 
aware in understanding how important training really is and not 
to give lip service to training, and to coordinate and making 
sure that whatever training--because training dollars obviously 
are very--are very slim. They are difficult to fund, in a 
sense. But if you--you have to make sure the training that you 
are doing is linked to your mission, making sure that training 
dollars that are very rare, that we can actually get to that 
training and expend the funds appropriately.
    Chairwoman Klobuchar. Okay. Thank you. I do not want to--we 
have many members here, so I will put some questions on the 
record on your recent findings regarding the Department using a 
contractor that displayed images with known connections to 
white supremacist groups. If I have a moment, either I or 
someone else will ask those questions as well.
    [The information referred to was submitted for the record.]
    Chairwoman Klobuchar. With that, I will turn it over to 
Senator Blunt.
    Senator Blunt. Thank you, Chairwoman. Again, Mr. Bolton, 
thank you for being here. By my count, which may not be--you 
may not have counted these this way, but by my count, around 
50--my count says 50 of the 65 recommendations that you made 
can be implemented by the Department without any legislative 
changes or additional appropriations. Does that sound about 
right to you?
    Mr. Bolton. Yes, sir, that does sound about right because a 
lot of my recommendations are to update or create policies and 
procedures or to reinforce certain policies and procedures. 
Those certainly do not require a legislative fix nor approval 
by the Board.
    Senator Blunt. I think the remaining 15 focus on 
implementing proper training, acquiring necessary equipment, 
bolstering the Department's intelligence unit. Is that correct?
    Mr. Bolton. Yes, sir, that is correct.
    Senator Blunt. There may be some cost to that, but even in 
those areas, not this hearing about cost, but those areas that 
cost is a cost that clearly is manageable and easily 
accessible, I believe, for the Capitol Police. What steps has 
the Department taken to implement the 50 recommendations that 
do not require legislative action or further appropriation?
    Mr. Bolton. I just had a conversation with a member of the 
Capitol Police Board. They have formed a Board work--what they 
call Board working group that is going to be focusing on not 
only my recommendations but also General Andre's 
recommendations and your report, the Senate's report, 
recommendations. They will be meeting. They think is just--they 
have had two meetings so far. My discussion with the Board 
members was that I will be included not so much in the 
meetings, but the after-action to provide me with an update of 
where the Department is heading to any kind of a timeline/
timeframe for when I would be able to start seeing some of the 
closures of the recommendations and where they are at. The 
Board has instituted a working group. It is up and running now 
as we speak, so that is one, as well as we try to reach out to 
the Department periodically to see where they are at with the 
recommendations.
    Senator Blunt. Good. On that issue, do you feel like you 
have had the cooperation from the Department, including the 
current leadership, that you needed for your flash reports?
    Mr. Bolton. Yes, sir. Absolutely. We have received full 
cooperation, and they have made themselves available whenever 
we have requested an interview and/or documents.
    Senator Blunt. You have looked at our report. I appreciated 
you saying that you completely concur with the recommendations 
and findings. Let me ask you about a couple of things just 
specifically to be sure where we are concurring in the same 
area. One of our recommendations is to update the Department's 
incident command system in order to designate who the incident 
commanders would be ahead of a large event, ensure better 
communication during the event, frontline and--better 
communication during the event with frontline officers, and to 
require senior leaders to take over communication 
responsibilities if needed. Do you agree with that 
recommendation?
    Mr. Bolton. Yes, sir. In fact, we are in the midst of 
conducting our other flash report of the Command Coordination 
Bureau, and I suspect that that will probably also be one of 
our recommendations as well.
    Senator Blunt. You believe the Department could implement 
this now if they wanted to go through your oversight group that 
is looking at it?
    Mr. Bolton. Yes, sir.
    Senator Blunt. Would I be right in assuming that now, can 
the Department--can they move forward with any of these 50 
recommendations, or do you think that now has to go through the 
group that the Police Board has put together?
    Mr. Bolton. It is not so much that it has to go through the 
Board for that process--that working group. That working group, 
I think, is to assist the Department in moving forward in 
whatever--if there are recommendations that they may need 
assistance from the committees that the Board can assist them 
in that. But I also believe that the Board is to kind of keep 
them on track, keep them moving forward. It was just recently, 
last week, that the Department requested, I think, closure of 
six of our recommendations--about six recommendations for our 
second flash report. We did close two on--relating to the first 
flash report those had to deal with basically updating the 
policies and procedures, so they are moving forward with our 
recommendations, and I believe that this working group will 
assist them in keeping that momentum going.
    Senator Blunt. Well, I think momentum is important here, 
and it has been our view, both Senator Klobuchar's and mine, 
that so many of these things, we now clearly have a sense of 
what we ought to do, and now we ought to be sure that we move 
forward as quickly as we can to make the changes. Do you 
believe the better--that better command planning and 
communication on January 6th would have helped prevent the 
breach of the Capitol?
    Mr. Bolton. Certainly better planning, along with--there 
are also a lot of elements with the training, proper equipment. 
But certainly, the planning would have put the officers in a 
better position to succeed.
    Senator Blunt. One of the recommendations of the joint 
report is for the Capitol Police to conduct joint training 
exercises with Federal, state, and local partners on the 
command and control process during an emergency. Do you agree 
with that recommendation?
    Mr. Bolton. Yes, sir. When you are able to conduct joint 
exercises, joint training not only with our Federal partners, 
but one of our recommendations is that we need to be doing 
joint exercises within our own Department, with our own 
different elements. That way, everybody knows what they are 
doing, and we are taking a concerted, coordinated effort into 
whatever the situation or event calls for us to take action.
    Senator Blunt. On the idea of an event, one of the 
recommendations of the joint report is that a department-wide 
operational plan be in place for special events, that that 
would be required. Do you agree with that?
    Mr. Bolton. Yes, sir. Absolutely.
    Senator Blunt. It is important--do you think that plan like 
that would have helped prevent the breach of the Capitol?
    Mr. Bolton. Yes, sir. I firmly believe having a coordinated 
effort and plan would help and put the officers in a better 
position.
    Senator Blunt. It is my understanding that following 
January 6th, the Command and Coordination Bureau will be 
overseeing operational planning for special events. Have you 
seen any new directives from this bureau that would require 
department-wide operational plans for large events?
    Mr. Bolton. I do not believe I have seen that. I may be 
incorrect on the last--I am trying to remember the recent--most 
recent request for closure recommendations. I can get back with 
you, sir, just to certain make sure that I am correct on that 
they--but I do know that they have started, since the event, 
creating a--an operational plan more robust or thorough than 
the previous one. It seems to be that they have moved toward 
that area.
    Senator Blunt. My last question this round would be, one of 
our recommendations was that a civil disturbance unit be 
established as a permanent component and have dedicated 
officers as part of that unit. Do you agree with that?
    Mr. Bolton. Yes, sir.
    Senator Blunt. Chairwoman, thank you.
    Chairwoman Klobuchar. Thank you very much, Senator Blunt. 
Next up, Senator Capito.
    Senator Capito. Thank you, Madam Chair, and thank you, 
Inspector General, for being here. I want to begin by thanking 
the Capitol Police for everything they do every day for us, for 
their bravery on January the 6th. I think we certainly want 
them to know that, I think, we all deeply respect them and are 
very appreciative of their efforts. My first question is, you 
mentioned that you want to go from--you think the Capitol 
Police should go from being a police entity, police agency to a 
protective agency. Where would the policing aspect of their 
jobs now, where would that go? DC Metropolitan Police? How do 
you envision that kind of coordination?
    Mr. Bolton. Some of it, it is almost also a posture that 
you are going--when I say ``move to a protective agency,'' it 
is not that every officer then we will go into a suit and tie, 
okay? But their focus would be less on minor crimes, like 
around Union Station, those----
    Senator Capito. Station, mm-hmm.
    Mr. Bolton [continuing]. that type of areas or simple 
traffic violation.
    Senator Capito. Mm-hmm.
    Mr. Bolton. But your training is the important component of 
all this. When you start training individuals into a protective 
mode and thinking protection, much like the DPD or the Secret 
Service, you are teaching your folks about protection and how 
to go about it. Like even with the Secret Service, you have a 
Uniformed Division who have police powers, but their focus is 
on protection, whether it be the foreign embassies, or the 
White House, or the Vice President. It is--it is also a 
mindset.
    Senator Capito. You are not really envisioning two 
different agencies being here. You are just basically 
repositioning the way the force actually thinks about it. We 
call them the ``Capitol Police,'' so, you know, maybe that 
would be a good place to start, maybe rebrand them or--at least 
through their training, certainly. You mentioned, and this has 
been mentioned in all the reports, that the training was not 
there, both on--how to handle the situation or a situation 
similar to that, but also training on weapons and the use of 
certain types of weapons. I saw the CERT team did not have 
training. I think it was only 10 percent were up to date on 
their training for certain types of weapons. What was the 
reason for that, that they were not trained?
    Mr. Bolton. Maybe it is tenfold or several fold, but as far 
as--training is near and dear to my heart because I came also 
from officer training as a firearms instructor and the counter 
assault team, so I understand the importance of training.
    Senator Capito. Mm-hmm.
    Mr. Bolton. There is no excuse for not getting your 
training in. Even with the pandemic and COVID, they trained out 
at Fort Meade. There is plenty of open air, open space that is 
wide open that you can spread out and still get your requals 
in. To me, the biggest failure is that because we have allowed 
certain elements within the Capitol Police to be autonomous, 
they conduct their own training.
    Senator Capito. Okay.
    Mr. Bolton. That is the issue, whereas if you have a 
Training Services Bureau--and let us call it officer training--
that is fully incorporated, they handle all the training. They 
conduct it. They make sure you get the training. They hold your 
officials accountable. Your people did not get training? Guess 
what? We are sending a letter to the chief, and they can no 
longer work until they get requal'd, or what have you.
    Senator Capito. It sounds a little bit like our 
cybersecurity training. You make it mandatory, and if you do 
not follow through with it, there are consequences. Let me ask 
you this. Were there--and I do not know the answer to this 
question. Were there any K-9's in and around--I know that K-9's 
are trained to detect weapons or maybe even substances. I 
actually, when I was the appropriator for the Capitol Police, 
went out to their K-9 training centers, a kind of area of 
interest for me. I know there is a shortage of fully trained K-
9's in all law enforcement, whether it is at the airport or 
wherever it might be. What was the posture of those officers, 
and are those dogs trained in a protective way rather than a 
more anticipatory, if you understand what I am saying, more 
aggressive--I guess more aggressive posture?
    Mr. Bolton. Yes. Well, first off, we have not--we have not 
looked specifically at K-9. Our plan for our continuing reviews 
in August, we will be looking at K-9 and HMRT, specifically.
    Senator Capito. Mm-hmm.
    Mr. Bolton. But as we have done with our--because we are 
also reaching out to individual officers for our--this report 
that we are doing now, the Command and Control, to get their 
officers and what commands are given. Some of the things that 
we have received and spoken to us is that K-9's, at that point 
they were tasked with basically supplementing CDU. There dogs 
were then placed into kennels, into our Department kennels. 
They were kenneled, and those officers, those handlers were put 
on the front line.
    Senator Capito. Oh, Okay.
    Mr. Bolton. The problem when you do that is when you put a 
dog in a kennel, one, it is stressful for the dog, and dogs can 
only--our dogs, like any K-9 dogs, not us specifically, they do 
need--require a certain amount of down time, and because they 
are in a kennel, they are not getting that. Then when it was 
called upon for them to go ahead and sweep the Capitol once the 
insurrectionists were removed, you are wanting--you have to, 
you know, be mindful that those dogs are tired now, and you are 
tasking them to do very high-level work. Our dogs basically are 
not attack dogs. They are not crowd control dogs. They are 
sniffers, they would say, type dogs.
    Senator Capito. Would that be a recommendation to amplify 
the force to get more crowd control dogs?
    Mr. Bolton. I would venture probably not crowd control 
dogs. Most police departments have moved away from that concept 
of crowd control dogs.
    Senator Capito. Mm-hmm.
    Mr. Bolton. There are some that still employ that, but then 
again, that is something that, you know, needs to be really 
considered.
    Senator Capito. Yes. Okay. My last question is, you have 
made a lot of recommendations, and the--and the report that 
came from the committee made a lot of recommendations. You are 
following up on those? You said you are going to be on this--
until the end of the year. Is part of that following up on the 
recommendations to see in what stage they might be, or if they 
are being implemented by the--by the Capitol Police?
    Mr. Bolton. Basically, right now, our plan is that once we 
have completed our reviews of the different elements within the 
Department, we are going to produce a report on all the 
recommendations----
    Senator Capito. Okay.
    Mr. Bolton [continuing]. to give a report to the committees 
and to the Board of the status of all the recommendations.
    Senator Capito. Okay. Thank you.
    Mr. Bolton. Great.
    Chairwoman Klobuchar. Thank you very much, Senator Capito. 
Senator Ossoff? He is on remotely.
    Senator Ossoff. Thank you, Madam Chair. Thank you for your 
continued leadership, and thanks to your staff as well as the 
Ranking Member staff for their work preparing this report. Mr. 
Bolton, thank you for joining us today.
    On February 22d, during this committee's first hearing on 
the events of January 6th, I asked a simple question of the 
panel: Who is in charge? Who is ultimately responsible for the 
security of the United States Capitol Complex? Nearly 4 months 
and many studies and ongoing investigations later, I want to 
ask the same question of you. Who today, which individual, is 
ultimately responsible for the security of the United States 
Capitol?
    Mr. Bolton. That is a difficult question to answer in a 
sense that, yes, you have a chief of police who runs the day-
to-day operations for the Capitol Police, but then you have a 
Capitol Police Board, an entity that also is--basically has 
oversight of the Capitol Police. The chief, they have the 
authority to hire or terminate the chief, so that would be a 
difficult question. But if you--to try to pin it down the best, 
I would say probably the Capitol Police Board has probably the 
ultimate authority.
    Senator Ossoff. Mr. Bolton, would you agree with me that 
when a question, like who is in charge, which individual is 
accountable, is difficult to answer, that suggests, especially 
when the stakes are so high--this is a national security 
issue--the need for reform to establish clear lines of 
accountability, a clear chain of command, and one individual 
who is ultimately accountable for the security of the United 
States Capitol?
    Mr. Bolton. I would agree with you, sir, that if it takes--
that if it is hard to distinguish who is actually in charge, 
then it certainly raises issues and questions.
    Senator Ossoff. Has there not been any capacity for the 
Board and those who are currently entrusted with and empowered 
to secure the United States Capitol to streamline and make 
clear who is in charge? Does that require statute? Does that 
require action by Congress? What could the United States 
Capitol Police, the Sergeants at Arms, and the Board do now to 
clarify which individual is in charge? Because I have to say it 
is--it is not reassuring to hear that there remains this basic 
ambiguity about responsibility, command, and accountability.
    Mr. Bolton. Sir, I think the best individuals to ask that 
question would actually be the Board as opposed to myself.
    Senator Ossoff. Okay. Mr. Bolton, we will put that in 
writing to the Board immediately.
    Senator Ossoff. I want to ask you about cybersecurity, and 
I know that this is not principally the responsibility of 
United States Capitol Police, but would nevertheless appreciate 
your view on the matter. The Senate Sergeant at Arms recently 
said that what keeps her up at night is actually not the threat 
of another violent, riotous invasion of the United States 
Capitol, but, instead, a cyberattack on the Capitol or on 
congressional information technology. Maintaining physical 
security over computers and over devices is an essential aspect 
of cybersecurity. I want to ask you if there is a plan, to your 
knowledge, to handle the extensive fallout that would result if 
congressional networks were compromised, and who, to your 
knowledge, is ultimately accountable for the cybersecurity of 
the United States Capitol? I ask that question in the same 
spirit: Basic principle of management. If no one is in charge, 
then no one is in charge and no one can be held accountable. To 
your knowledge at this moment, with which individual rests 
responsibility for cybersecurity in the United States Congress?
    Mr. Bolton. Well, sir, I believe if you are looking at the 
cybersecurity, the Senate Sergeant at Arms would have overall 
security for cybersecurity for the Senate, the House Sergeant 
of Arms would have it for the House obviously, and the 
Architect of the Capitol would be for the Architect of the 
Capitol, that entity. Those--but there is one singular 
individual overall for the Capitol Complex.
    Senator Ossoff. Thank you, Mr. Bolton. Do you believe it 
would be appropriate to consolidate the disparate Capitol 
Police units responsible for intelligence gathering and 
analysis into a single bureau led by a civilian director of 
intelligence to increase the focus of Capitol Police 
intelligence gathering and analysis, improve the timely sharing 
of relevant intelligence, and improve coordination within the 
agency and its law enforcement partners?
    Mr. Bolton. Yes, sir. I believe that that would be the most 
efficient way of going about the gathering and dissemination of 
intelligence.
    Senator Ossoff. Thank you, Mr. Bolton. A final question 
with my remaining time, if you will indulge me, Madam Chair. 
Under the--under existing authorities, the Capitol Police Chief 
lacks unilateral authority to even request assistance from the 
National Guard and must first obtain an emergency declaration 
from the Capitol Police Board. Do you agree with this 
committee's report and its conclusion that the Capitol Police 
Chief's lack of such authority to request National Guard 
assistance unilaterally hindered his ability to respond quickly 
during the attack on January 6th?
    Mr. Bolton. Certainly, sir, I think the results of what 
occurred on January 6th bear that out to be correct.
    Senator Ossoff. Thank you, Mr. Bolton. Thank you, Madam 
Chair.
    Chairwoman Klobuchar. Thank you very much, Senator Ossoff. 
Next up, I believe, is Senator Hyde-Smith, and the first one to 
arrive. Thank you.
    Senator Hyde-Smith. Thank you, Chairwoman Klobuchar and 
Ranking Member Blunt, for today's hearing, and I certainly 
commend both of you on such a wonderful example of 
bipartisanship, working together, and, along with your 
counterparts on the Senate Homeland Security and Governmental 
Affairs Committee, to complete the investigative report that 
was released.
    You know, ensuring our Capitol Police have the intelligence 
and resources they need is very important to everyone sitting 
up here, and, Mr. Bolton, your office has proposed numerous 
ways to improve the intelligence, training, equipment, and 
operations for our Capitol Police. All of those are very 
important. However, I am concerned that without an adequate 
number of officers on the force, that all of this would be 
pointless. I continue to hear about the unprecedented 
resignations and retirements among the Capitol Police officers 
since the event on January the 6th, and I have also heard how 
the officers remaining on the force are working unsustainable 
schedules, including many overtime shifts, which you mentioned 
briefly in your testimony. How is your office now approaching 
recruitment, the retention issues, to ensure that we can always 
have an adequate number of officers on the force?
    Mr. Bolton. Thank you, ma'am. Well, first, my office is not 
involved within the recruitment or retention of the officers. 
That is going to be handled by the Department. Human resources 
would be handling that. The type of job that we have done is we 
have looked at what kind--how they constituted their 
recruitment office and how they are going about that. But as 
far as individually recruiting or being involved in it, that is 
not something within our role, or responsibility, or our 
purview of the actual physically going out there and 
recruiting. We will look at are they being effective in 
recruiting, and we would bump that out with either GAO best 
practices or other departments' best practices on how they go 
about--go about recruiting, but not the actual recruitment of 
officers.
    Senator Hyde-Smith. Do you have any recommendations on how 
we can improve the morale of the officers?
    Mr. Bolton. I think the best way you are going to improve 
the morale of officers is to give them good leadership that 
they can trust, and provide them with a clear mission, and 
train them to be able to accomplish that, and give them the 
tools to do their job, and that will increase your morale.
    Senator Hyde-Smith. Repeatedly throughout many of the flash 
reports that I have seen published by your office, you 
mentioned the difficulty in separating credible threats of 
violence in the First-Amendment-protected activities. Walking 
this line is key to ensuring that we keep our Capitol Complex 
safe and prevent unlawful activity, but also preserving the 
area to continue to serve as a public forum for the First 
Amendment activity. Are there best practices that you have 
identified for how to ensure First Amendment rights are 
protected while also taking seriously the potential 
intelligence about that violence and other unlawful activity?
    Mr. Bolton. Well, that is something you can circle back to. 
Having an intelligence agency or bureau with trained analysts 
to disseminate that information, provide it to the officers, 
your rank and file, one, that is going to give them the 
confidence of what they may be going to experience, be prepared 
for it, and understand that, most important, is our first--the 
First Amendment rights for people to exercise those rights when 
they come up here to the People's House. The understanding is, 
I have heard many times, that they did not receive any direct 
threat or substantiated threat before January 6th. If they are 
waiting for that mystical letter to show up on their desk 
saying you are going to have people who are going to grab your 
shields, and break glass, and storm the Capitol, and such as 
that, you are never going to receive that. Intelligence is like 
a piece of a puzzle, and you have to have the trained analysts 
to be able to put those pieces together to give the Department 
a picture of what to expect and to be prepared for, also making 
sure to allow for First Amendment activity in a lawful manner.
    Senator Hyde-Smith. I am quickly running out of time, but 
you also mentioned in your testimony the need for additional 
medical training for Capitol Police to ensure that the officers 
receive quick access to emergency care. One of the things that 
we have thought about is, have you considered whether there is 
any role here that should be played by the Office of the 
Attending Physician or any of nurses that we have stationed out 
through the Office Health Units throughout the Capitol Complex?
    Mr. Bolton. Maybe not in a direct manner because, again, 
you are taking civilians and placing them in harm's way, but 
having your officers, and they can coordinate that kind of 
training with the Office of the Physician and the nurses, and 
the type of training. Back in my day, we called it 5-minute 
medicine. Every agent was provided training in what we call 5-
minute medicine, in case, to basically to stabilize an 
individual, whether it be a sucking chest wound, broken bones, 
compound fracture, that we would be able to at least get them 
stabilized in order--until proper medical care came in there. 
If every officer at least had basic medical training that they 
can assist, whether it be civilians, innocent individuals, or 
their own officers, or even members, to be able to provide them 
with that immediate medical care for them.
    Senator Hyde-Smith. Thank you, Mr. Bolton, and thank you, 
Madam Chairwoman.
    Chairwoman Klobuchar. Senator Padilla?
    Senator Padilla. Thank you, Madam Chair. Mr. Bolton, thank 
you for your participation today. Now, in your testimony, you 
described a need to change the culture of the Capitol Police 
from that of a police force to that of a protective agency. 
First, I guess, a two-part question. First, in practice, what 
does it mean to reshape the Capitol Police into a protective 
agency? What would the practical and operational effects of 
that be, number one. Number two, how long do you think such a 
culture shift would take to implement? I mean, beyond just 
changing the policies, right, the words on paper and procedures 
on paper, what needs to be done in terms of training, and 
tactics, and ethos to operationalize such a change?
    Mr. Bolton. Thank you, sir. To best answer your question, 
one, in the thought process of a protective agency, a 
protective agency is more--is geared toward proactive, that you 
are trying to anticipate as opposed to being reactive. Yes, 
that is it--is not exactly a quick fix. Yes, you can--you can 
put things--certain things down as directives or SOPs. The hard 
part and the part that is actually going to require a lot of 
funds is having a Training Services Bureau, an officers 
training, that is geared now to teaching, and also do an in-
service training in that protective mode where now you are 
changing--basically, the courses that you are teaching now are 
regular police-type tactics or police procedures, that now you 
are shifting. It is a fundamental shift, and it is not an easy 
shift because it is going to require for us, one, to have a 
larger footprint in Cheltenham, to utilize more of that space 
there, and it is quite a bit of an infrastructure we are going 
to be requesting or they would have to request from 
appropriations, but as well as bring in subject matter experts, 
those who have been brought up in that type of environment, in 
that protective mode, and getting the Department up to speed to 
where now they can do that training in there. They are going to 
probably have to bring folks from the outside who are already 
trained in that skill set, get us at level, the subject matter 
experts.
    Senator Padilla. Thank you. Next, I want to shift to the 
topic of white supremacy. It is conversation we have had in the 
Judiciary Committee with different nominees coming through for 
confirmation as it pertains to rooting out white supremacy, not 
just in Federal Departments and agencies, but in law 
enforcement agencies, frankly, throughout the country, but 
specific to this. Top of mind for me, particularly because of, 
I will be blunt about it, the relationship that the Trump 
Administration and President Trump himself had with some of 
these fringe groups, which were, in large part, what led to 
January 6th.
    In the course of your investigation, you found that the 
Capitol Police's Containment Emergency Response Team, the CERT 
Team, contracted with privately owned entities to train its 
personnel in firearm marksmanship and other tax exempt 
facilities located outside the District of Columbia 
metropolitan area. One of the contractors used by the Capitol 
Police had, according to your report, ``questionable content on 
their website.'' News reports have suggested that the 
questionable content includes symbols associated with the white 
supremacist movement. These reports are, of course, of serious 
concern. Beyond identifying the fact of the contract and the 
concerning website content of the contractor, have you 
undertaken any deeper study into why or how this particular 
contractor came to be selected? You know, more broadly, have 
you already or do you plan to undertake any study of whether 
the use of this contractor suggests a wider concern with white 
supremacist ideologies within the force?
    Mr. Bolton. At this time, sir, once we discovered that, we 
conveyed our concerns, as you mentioned, within a--what we call 
management advisory report to the Department, our concerns in 
recommending that they seriously consider not utilizing that 
particular company. We have not done any in-depth work on 
investigating that company. I did refer our information in my 
report over to the Department of Justice for action as they 
deem appropriate. It is more appropriate for them to look at it 
as opposed to me. That would be somewhat outside of my 
jurisdiction unless they were--we could show that there was 
contract fraud that would keep it within my purview. But as to 
investigating that kind of an entity, that is not within my 
jurisdiction, hence why I sent it over to the Department of 
Justice. That is the more appropriate entity to look at that.
    Senator Padilla. Madam Chair, just a follow-up question on 
this topic. I appreciate you are engaging the Department of 
Justice for what they and only they can do. I would suggest 
that, along with this culture shift that we are talking about, 
this is something that remains in your purview, and let me ask 
an additional specific question to help. Given the Federal Law 
Enforcement Training Center and other non-contracted training 
facilities are nearby, is there any justification for Capitol 
Police relying on contractors to provide training to officers, 
and have you done a comprehensive review to determine if 
Capitol Police has entered into other similar contracts instead 
of relying on available Federal resources to train other--that 
are available to train other Federal law enforcement officers?
    Mr. Bolton. There is really no reason for them not to use 
other Federal agencies. My previous employer, the Secret 
Service, when I was on the Counter Assault Team, we would 
utilize obviously our own training facilities, which are a 
little bit more extended than what Capitol Police have, but we 
would also use DOD so we would not have those kind of things. 
But it was approved training through the Office of Training to 
fit our skills and abilities and needs to complete our mission.
    We do plan on looking at for fiscal year 2021--I have 
already started trying to work on my annual plan for 2022. One 
of the things that we are going to look at, we are going to 
look at all outside contractors for the appropriateness and 
whether or not we would be able to use--you know, leverage some 
Federal agencies to assist us and save money, and that is kind 
of what our mandate is, the fraud, waste, and abuse, to weed 
out those.
    Senator Padilla. Well, the fraud, waste, and abuse is in 
and of itself meritorious, but to the extent that it gives a 
better ability to identify and root out dynamics such as white 
supremacy, I would argue, bring some urgency to it. I do not 
want to put words in your mouth, but the first part of your 
answer to that final question sure sounded like there does not 
seem to be any reason or justification for using non-Federal 
resources already available in officer training. Therefore, the 
use of contractors to provide that training does not make 
sense.
    Mr. Bolton. That would be correct, sir.
    Senator Padilla. Thank you, Madam Chair.
    Chairwoman Klobuchar. Thank you very much, Senator Padilla. 
Senator Hagerty?
    Senator Hagerty. Thank you, Chair Klobuchar, Ranking Member 
Blunt. I appreciate your having this hearing. Mr. Bolton, thank 
you for being here, and I want to also reiterate what my 
colleagues have said, how much we appreciate what the United 
States Capitol Police does for us every day to keep all of us 
safe and protected. I know they have been working long hours, 
and we very much appreciate their efforts.
    I would like to start my question with you to highlight the 
critical role of local, state, and Federal law enforcement 
agencies in the effort that took place all around the region, 
coming together on January the 6th. I would like to highlight 
the recent bipartisan report by this committee and the Senate 
Homeland Security Committee, which notes that at 1:51 p.m. on 
January the 6th, the Capitol Police activated its mutual aid 
agreement with regional law enforcement agencies, and that led 
to a quick response by local, state, and Federal law 
enforcement agencies, who helped Capitol Police and Metro 
police secure the Capitol building by 4:28 p.m., which was 
fully an hour before the DC National Guard arrived.
    So, Mr. Bolton, and I would like to focus on how we can 
assure that Capitol Police officers have the leadership, the 
training, and the tools that they deserve.
    Your recent interview identified intelligence-related 
deficiencies in the Department's organizational structure, the 
Department's training, its professional standards, its internal 
controls, and the collection and dissemination of information, 
as well as a failure with intelligence evaluations in 
connection with January the 6th. These intelligence 
shortcomings were known before January 6th, in fact, identified 
in two previous IG reports. Similarly, the bipartisan Rules and 
Homeland Security report found that ``important intelligence 
information received by internal United States Capitol Police 
components was not appropriately shared among USCP's distinct 
intelligence-related components.'' I would like to ask you, Mr. 
Bolton, is it accurate that you found numerous Capitol Police 
intelligence-related shortcomings ahead of January 6th, at 
least one of which has been raised in previous IG reports?
    Mr. Bolton. That would be correct, sir, yes.
    Senator Hagerty. Thank you. Leading up to January 6th, who 
was in the role of assistant chief of the Protective and 
Intelligence Operations, which oversees Capitol Police 
intelligence components?
    Mr. Bolton. That would be Acting Chief Pittman.
    Senator Hagerty. Thank you for putting it on the record. 
More general, the bipartisan Rules and Homeland Security 
Committee found out that on January the 6th, Capitol Police 
leadership did not adequately utilize available intelligence. 
They did not adequately plan operationally. They did not 
provide protective equipment for officers. They did not provide 
civil disturbance training to officers, nor did they 
communicate with officers during the violence. Mr. Bolton, your 
written testimony quoted a 2014 IG report stating that, ``Only 
when the right personnel for the job are on board and provided 
the right training, tools, structure, incentives, and 
responsibilities is operational success possible.'' My next 
question, Mr. Bolton: Do you believe that Capitol Police 
officers were given the training, the tools, the structure, the 
incentives, and the responsibilities they needed to succeed 
operationally on January the 6th?
    Mr. Bolton. No, sir. I do not believe that they were given 
those tools and the ability to be able to do--to be successful. 
Some of the officers that I have spoken to just briefly, one 
made a comment to me it is not so much that we had to fight 
with one hand behind our back, but at times they felt like both 
hands were tied behind their back.
    Senator Hagerty. Thank you. Finally, Mr. Bolton, in 
reviewing your recommendations, I was struck that many of your 
recommendations focus on improving internal policies and 
practices, on improving training regiments, on improving 
organizational structures and emergency preparedness. Is it 
your view that addressing these management issues that you have 
identified would go a long way toward remedying the issues that 
came up on January the 6th?
    Mr. Bolton. Yes, sir. If you establish repeatable business 
practices in doing what we need to do to complete our mission, 
you are going to be successful.
    Senator Hagerty. You concluded in your written testimony by 
stating that, ``It is our duty to honor those officers who have 
given their lives, but also ensuring the safety of all those 
working and visiting the Capitol Complex by making hard changes 
within the Department.'' I think that is very well said, and I 
agree that we owe it to our Capitol Police officers, who put 
their lives on the line every day, to make the changes 
necessary to protect them, to give them the equipment, the 
resources necessary for them to succeed in their job. Thank 
you, Mr. Bolton.
    Mr. Bolton. Thank you, sir.
    Senator Hagerty. Thank you, Madam Chair.
    Chairwoman Klobuchar. Thank you very much. I just have a 
few additional questions. A vote has been called, but Senator 
Blunt and I just have a few additional questions. The Capitol 
Police currently has personnel who are integrated in 
intelligence task forces, including with the FBI and other 
Federal law enforcement agencies. Part of our report, as I 
mentioned earlier, was about recommending how the Capitol 
Police better coordinate with the FBI, Homeland Security, and 
other intelligence-gathering agencies. Can you briefly explain, 
Mr. Bolton, the importance of these information-sharing roles, 
and do you agree that the relationship between Capitol Police 
and Federal intelligence agencies must be improved?
    Mr. Bolton. Thank you, ma'am. Absolutely. That is going to 
be your conduit in getting the intelligence. It is having and 
forming these relationships with these other agencies. It is 
important just to actually establish a working relationship, 
meeting folks face-to-face, dealing with them on a daily basis, 
providing and sharing the information. That is how you are 
going to accomplish your goals, is by establishing these firm 
relationships and also understanding how you can learn from 
others. It is a--it is not that everybody has the right answer. 
There are a lot of good answers out there.
    The Department has been moving forward in strengthening 
those. In today's Board meeting, which I attended, they were 
outlining several of the new initiatives that the Capitol 
Police are undertaking, and directly with involving and to 
strengthening those relationships, putting--getting out into 
their--the field offices, to establishing--also to help on 
threat assessment cases, as well as they will be bringing eight 
new analysts on board here shortly.
    Chairwoman Klobuchar. Mm-hmm. That is good to know. When 
the two incident commanders ended up in the middle of the 
violent insurrection, which was precipitated by President Trump 
and his false claims, they were unable--these commanders were 
unable to communicate. They were unable to communicate because 
they were actually on the front lines fighting. Then no one 
from Capitol Police leadership stepped in and directed 
officers, and that was the haunting words of the officer, 
``Does anyone have a plan?'' Our report recommended that the 
Capitol Police update its incident command system to establish 
communication priorities and contingency plans so officers are 
not left listening to radio silence and pleas for help. Do you 
agree that the Department's communication system should include 
backup plans so a senior officer is always available on the 
radio?
    Mr. Bolton. Absolutely. Yes, ma'am. It should be one of 
those things where you plan for the worst, hope for the best.
    Chairwoman Klobuchar. Very good. Can you briefly elaborate 
on why some divisions, like the Containment and Emergency 
Response Team, have separate training programs, and why all 
Capitol Police training should be, instead, centralized under 
the Training Services Bureau?
    Mr. Bolton. As I outlined in my flash report, that is an 
issue that has long plagued the Department in allowing these 
individual entities to become almost autonomous in the 
training, hence why we have been vocal--very vocal about need--
the need to centralize your training. We brought up in other 
reports K-9. K-9 should not be conducting their own training. 
You need to have that separation of duties. That is just best 
practices. Any GAO report that you pull up on training are 
going to tell you to have a separation of duties.
    Chairwoman Klobuchar. Mm-hmm.
    Mr. Bolton. These are not something that is new that we 
are--just thought this was a great idea. These are longstanding 
best practices. You have got to have centralized training. They 
handle the training. When you run into--it is the old thing of 
the tail wagging the dog. The Department should establish what 
are--what is the mission goals. We will take CERT for instance. 
What are our mission goals? What skill sets do we need then to 
complete this goal? What are our expectations? What can and can 
they not do? They should formulate that, and which that was one 
of our recommendations. Do a study and formulate detailed 
mission goals. Once you have done that, then you send it over 
to the Office of Training. They develop the training. They 
track the training. They bring in your subject matter experts. 
They conduct and monitor and track all the training. The CERT 
is there to--then they have a clear understanding of what their 
mission is, and so does the Department.
    Chairwoman Klobuchar. Mm-hmm. Do you think the Department 
needs a standalone counterintelligence entity?
    Mr. Bolton. A countersurveillance unit?
    Chairwoman Klobuchar. Mm-hmm.
    Mr. Bolton. Yes, ma'am, they certainly do, and it would be 
very helpful. I know the Secret Service has that. They set that 
up a number of years ago, and that is quite helpful in 
conducting their day-to-day operations.
    Chairwoman Klobuchar. Last question. We have had--we know 
there are a lot of organizational changes that need to be made. 
We talked about the new police chief, legislation, those 
things, but there has also been, even beyond January 6th, an 
increasing number of threat assessment cases the Capitol Police 
have had to handle. The Department--the police department has 
tracked--tasked with tracking and investigating threats against 
Members of Congress. Last month, the Capitol Police reported 
that threats against members are up 107 percent compared to 
this time last year. Does the Capitol Police have the resources 
and specialists needed to keep up with these serious threats?
    Mr. Bolton. They are ramping up in that very regard, like I 
said about the eight new analysts to assist it. They will be 
standing up here shortly, if they have not already, two field 
offices with a plan of three additional field offices 
throughout the country, basically regionalizing their functions 
out there to take certain locations within the country for 
those field officers to handle--start handling some of that 
threat assessment, taking the load off here.
    Chairwoman Klobuchar. Okay. Very good. Senator Blunt?
    Senator Blunt. General, the--your report indicated there 
were a few longstanding recommendations, namely realigning the 
Containment Emergency Response Team within the Department's 
structure, requiring all officers to maintain a security 
clearance, and elevating all intelligence components of the 
Department into an intelligence bureau. Why do you think those 
were not implemented?
    Mr. Bolton. There may be--I think some of that relates back 
to--going back to the cultural change. Once again, we 
recommended, as you stated, that the CERT teams fall under the 
Protective Services Bureau so they can better support the 
dignitary protective as well as other operations within the 
Department. Again, I think that was a reluctance to change 
based on longstanding, long-term ways of doing business. There 
are always going to be--people resist change.
    Senator Blunt. Do you believe if these recommendations had 
been implemented before January 6th, it would have made a 
difference in how they responded?
    Mr. Bolton. That would be very difficult--we do not have a 
crystal ball, but I would certainly say it would have put us in 
a better position to have succeeded that day.
    Senator Blunt. You said earlier that you report to the 
Police Board, though we may want you to testify before our 
committee more than we have in the past since it is your first 
day here, and we have some responsibilities with the Capitol 
Police. But when you reported to the Police Board, did you 
report to them that these recommendations were not followed?
    Mr. Bolton. Well, they do get--receive copies of whenever 
we close our recommendations and they are briefed by the 
Department on the status of their recommendations.
    Senator Blunt. Are you aware that they ever encouraged the 
police to--Capitol Police to move forward with your 
recommendations?
    Mr. Bolton. Sir, I am not aware of those--but those 
discussions could very well have happened.
    Senator Blunt. Alright.
    Mr. Bolton. But I am not aware of them.
    Senator Blunt. On January 6th, the heavier less-than-lethal 
weapons, like sting balls, were never used. Do you know who 
gave the order not to use those and why?
    Mr. Bolton. My understanding is it was an assistant chief, 
who is no longer with the Department, had those more heavier 
munitions stand down and not to be utilized. Some of those 
munitions, my understanding, too, through our report, that they 
were also expired munitions, as well as individuals were not 
fully--had not been fully trained and recertified to utilize 
those munitions.
    Senator Blunt. Well, so training, again, would have made a 
difference in what could happen there.
    Mr. Bolton. Yes, sir.
    Senator Blunt. I have some more questions for the record, 
but the only question I think I have today, in terms of 
rethinking what the Capitol Police--how they--how they view 
themselves, whether it is a security unit or a protective unit, 
are there jobs in the Capitol Police now that are done by 
uniformed officers that do not need to be done by uniformed 
officers? If we set up this new intelligence unit, does 
everybody we might recruit for that unit, for instance, have to 
become a trained Capitol Police officer, or are they part of 
the Capitol Police who focuses specifically on intelligence? 
Have you given thought to that?
    Mr. Bolton. Well, certainly, I think right now most of 
the--your intelligence bureau, your analysts--excuse me--are 
non-sworn officers. They are--they are civilian, so there are--
certainly a lot of those positions can--are, and also other 
agencies, are civilianized. They are not--like, serve as 
special agents. There certainly should be a study, at least a 
look or discussion, of some of the duties that Capitol Police 
undertake now could be, let us say just far as an instance, 
like, think of it as more of a security officer as opposed to a 
sworn officer.
    Senator Blunt. Mm-hmm, or a parking officer or something 
that would----
    Mr. Bolton. Something similar, yes.
    Senator Blunt. Well, I think we ought to be thinking about 
that. We have just about worn out the Capitol Police force, and 
I think we talk about adding more to the force. Our first big 
challenge is to fill the jobs we have, and in every police 
force in America that is a problem right now. We have got to be 
thinking, I think, smarter of how we use the trained and sworn 
officers we have. Thank you, Chairwoman. I have other questions 
for the record, but none today.
    [The information referred to was submitted for the record.]
    Chairwoman Klobuchar. Very good. Thank you. Senator Cruz?
    Senator Cruz. Thank you, Madam Chair. Mr. Bolton, welcome. 
Thank you for your work. Thank you for your examination of the 
issues behind what occurred on January 6th. The men and women 
of the Capitol Police and the other law enforcement officers 
who defended the Capitol and defended Members of Congress were 
heroic. They are heroes every day, but that day, in particular, 
they demonstrated extraordinary courage and valor, and they no 
doubt saved lives as a result of that bravery. Nonetheless, 
anytime there is a violent attack, a terrorist attack, it is 
important to engage in the careful retrospective of what steps 
can be taken--law enforcement steps, intelligence steps can be 
taken to prevent another incident from occurring.
    Looking at your flash reports, looking at the joint report 
that the Senate has put out, there have been a number of 
failings--law enforcement and intelligence failings that have 
been identified. In your judgment, what are the most 
significant intelligence failures that led to the failure to be 
adequately prepared for the violent attack on January 6th?
    Mr. Bolton. In regards to the Capitol Police, since that 
is--it is within my jurisdiction, I would say not having the 
ability to analyze and then disseminate that information. That 
particular Norfolk memo, or situational report, never made it 
to the chief or to the upper level of the command. That cannot 
happen. You have got to provide your commanders or your 
management teams with all the information. Nothing can be 
withheld from it because, again, as I talked about before, 
intelligence is like a puzzle. Now we just took one of the 
pieces and threw it away, and you cannot complete the picture 
now.
    Senator Cruz. What were the impediments that prevented it 
from making it to the chief?
    Mr. Bolton. I think part of that is the basic structure 
that they had in place at that time whereas the intelligence 
was not a standalone bureau. You did not have the trained 
individuals there to analyze this information and to be able 
to--with clear policies on how to disseminate it up the chain 
of command.
    Senator Cruz. What changes should the Capitol Police make 
or should Congress consider making in terms of how the Capitol 
Police is structured to prevent those intelligence failures in 
the future?
    Mr. Bolton. One of the biggest changes you can make is to 
make the current intelligence a standalone bureau, elevated to 
the level, beef it up; in other words, provide it with more 
assets. Take some of the elements that are within the Capitol 
Police, within that division, that are separate from them, 
bring them over and make it that--a concerted effort and where 
you have an individual that is schooled in the intelligence 
field from the very beginning of their career to right now, 
somebody that is well schooled and connected within the 
intelligence community.
    Senator Cruz. In hindsight, on January 6th, what 
operational steps should the Capitol Police and other law 
enforcement have taken to prevent the violent terrorist attack 
from successfully breaching the Capitol? What could have been 
done differently to prevent what occurred?
    Mr. Bolton. I think the best way is--to answer that, 
because hindsight, you know. Yes, that is what inspector 
generals do. We sit there and we are Monday morning 
quarterbacks. We are great at that. But I think just the 
overall--if you look at every--each one of our flash reports as 
well as your--the Senate's report, that is how we are going to 
achieve what we need to achieve, and not so much the hindsight, 
but here is what is before us. Here is the roadmap. Let us get 
to work and let us do it.
    Senator Cruz. Well, but in terms of what we can learn from 
hindsight, would you say it is principally additional manpower, 
both police officers and National Guard forces, that would have 
made a difference on that day, or other steps that would have 
made a difference to prevent the attackers from successfully 
breaching the Capitol?
    Mr. Bolton. I think by having a very detailed plan. If you 
had the training, the equipment, the steps that you could have 
taken to put you in a better position to succeed that day. They 
are there in front of us, that if we had had those in place, we 
would have been in a better position to succeed.
    Senator Cruz. In terms of the significant failings on the 
front end, you see the intelligence gathering and the failure 
for that intelligence to go up the chain to the decisionmakers, 
and then on the day of execution, the lack of an operational 
plan to deal with a violent terrorist attack of that magnitude. 
Is that right?
    Mr. Bolton. That would be correct, sir.
    Senator Cruz. Very good. Thank you.
    Mr. Bolton. Thank you, sir.
    Chairwoman Klobuchar. Well, thank you very much, Senator 
Cruz. I want to thank Ranking Member Blunt, the members of this 
committee, and especially you, Inspector General Bolton, not 
only for appearing before us today but for all the work and 
recommendations that you have made. Your experience comes into 
play here in a big way. I know some of these recommendations 
are being implemented as we speak, but there is much more to 
do. In today's hearing, we heard more about measures that are 
needed to restore trust and confidence in the United States 
Capitol Police leadership. These reforms are wide ranging, 
impacting nearly all parts of the Capitol Police, including 
with respect to intelligence, training, equipment, and 
operational planning.
    As we have heard in today's hearing, it is clear that 
changes are needed and that they should be implemented without 
delay. It is why we got our report out as quickly as we could, 
and our bipartisan report makes a number of recommendations, 
several of which were discussed today, and you have made 65 
recommendations yourself, Mr. Bolton, so far. While more must 
be done in the aftermath of the insurrection, and while I 
continue to feel very strongly that a 9/11-style report and 
investigation on what happened on January 6th would be most 
helpful because it would consolidate all the work that is being 
done across many branches of government, and including in--over 
in the House because it would be bicameral, I still think it is 
really important that we implement these recommendations from 
our bipartisan report and your work as soon as possible. Thank 
you very much to our colleagues.
    The hearing record will be held open for a week if you want 
to add anything, Senator Blunt.
    Senator Blunt. [Off audio.]
    [The information referred to was submitted for the record.]
    Chairwoman Klobuchar. Okay. We will go off to our vote and 
look forward to working with you in the weeks and months to 
come, Mr. Bolton.
    The hearing is adjourned.
    [Whereupon, at 3:43 p.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  

                                  [all]
</pre></body></html>
